No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
ANTONIO DIAZ-AGURCIA,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 22, 2020

No. 19-11376
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Antonio Diaz-Agurcia,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-92-1
Before Barksdale, Graves, and Oldham, Circuit Judges.
Per Curiam:*
Antonio Diaz-Agurcia pleaded guilty to one count of illegally reentry,
in violation of 8 U.S.C. §§ 1326(a), (b)(1), and (b)(2). He was sentenced to,
inter alia, 61-months’ imprisonment, an upward variance from an advisory

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 19-11376

Sentencing Guidelines sentencing range of 33- to 41-months’ imprisonment.
Diaz asserts: his sentence was substantively unreasonable; and the district
court imposed an unconstitutional sentencing enhancement relating to 8
U.S.C. §§ 1326(b)(1) and (b)(2) (establishing sentencing enhancement when
removal follows, inter alia, a felony or aggravated-felony conviction).
Although post-Booker, the Guidelines are advisory only, the district
court must avoid significant procedural error, such as improperly calculating
the Guidelines sentencing range. Gall v. United States, 552 U.S. 38, 46, 51
(2007). If no such procedural error exists, a properly preserved objection to
an ultimate sentence is reviewed for substantive reasonableness under an
abuse-of-discretion standard. Id. at 51; United States v. Delgado-Martinez,
564 F.3d 750, 751–53 (5th Cir. 2009). In that respect, for issues preserved in
district court, its application of the Guidelines is reviewed de novo; its factual
findings, only for clear error. E.g., United States v. Cisneros-Gutierrez, 517
F.3d 751, 764 (5th Cir. 2008). As noted, procedural error is not claimed.
An upward variance is unreasonable if the sentence “(1) does not
account for a factor that should have received significant weight, (2) gives
significant weight to an irrelevant or improper factor, or (3) represents a clear
error of judgment in balancing the sentencing factors” in 18 U.S.C. § 3553(a).
United States v. Chandler, 732 F.3d 434, 437 (5th Cir. 2013) (citation
omitted).

Diaz contends the court erred in balancing the § 3553(a)

sentencing factors when it neglected the mitigating circumstances of his time
in state custody and cultural assimilation. His claim fails; there was no abuse
of discretion.

2

No. 19-11376

In that regard, the court considered Diaz’ claims for mitigation but
found them outweighed by his criminal history, the need for adequate
deterrence, and the necessary protection of the public. See 18 U.S.C.
§ 3553(a)(2)(B)–(C). The court appropriately considered Diaz’ criminal
history and pattern of illegal reentry into the United States in choosing an
above-Guidelines sentence. See United States v. Smith, 440 F.3d 704, 709
(5th Cir. 2006) (“A defendant’s criminal history is one of the factors that a
court may consider in imposing a non-Guideline sentence.”). His sentence
is well within the range of upward variances we have upheld. See, e.g., United
States v. Key, 599 F.3d 469, 475–76 (5th Cir. 2010) (upholding 216-month
sentence where Guidelines maximum was 57 months); United States v. Smith,
417 F.3d 483, 492 (5th Cir. 2005) (upholding 120-month sentence where
Guidelines maximum was 41 months).
For his other claim, Diaz maintains the court imposed an
unconstitutional sentencing enhancement under 8 U.S.C. §§ 1326(b)(1) and
(2) because his prior convictions were not alleged in the indictment or found
by a jury beyond reasonable doubt. In Almendarez-Torres, however, the
Supreme Court held that, for purposes of a statutory sentencing
enhancement, neither of those factors for a prior conviction are required.
Almendarez-Torres v. United States, 523 U.S. 224, 239–47 (1998). And, our
court has held Almendarz-Torres “remains binding precedent until and unless
it is officially overruled by the Supreme Court”. United States v. PinedaArrellano, 492 F.3d 624, 625–26 (5th Cir. 2007). Diaz correctly observes this

3

No. 19-11376

challenge is foreclosed by our precedent and seeks only to preserve the issue
for possible further review.
AFFIRMED.

4

APPENDIX B

Case 4:19-cr-00092-A Document 32 Filed 12/20/19

Page 1 of 5 PageID 86

mntttb ~tatts mtstritt QCou
Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

§

v.

§

ANTONIO DIAZ-AGURCIA

§

bcputv

'

Ca~e

Number:

...

4:l9~CR-092-A(01)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Michael Levi
Thomas. The defendant, ANTONIO DIAZ-AGURCIA, was represented by Federal Public
Defender through Assistant Federal Public Defender Michael A. Lehmann.
The defendant pleaded guilty on July 5, 2019 to the one count indictment filed on March
27,2019. Accordingly, the court ORDERS that the defendant be, and is hereby, adjudged guilty
of such count involving the following offense:
Title & Section I Nature of Offense
8 U.S.C. § 1326(a) and (b)(1)/(2) Illegal Reentry After Deportation

Date Offense Concluded

Count

March 17, 2017

1

As pronounced and imposed on December 20, 2019, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $1 00.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 61 months.
The defendant is remanded to the custody of the United States Marshal.

1

Case 4:19-cr-00092-A Document 32 Filed 12/20/19

Page 2 of 5 PageID 87

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term oftwo (2) years. The court imposed a term of supervised
release because it will provide an added measure of deterrence and protection based on the facts
and circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the standard conditions ordered by this court
and shall comply with the following additional conditions:
1.

The defendant shall not unlawfully possess controlled substances.

2.

The defendant shall not commit another federal, state, or local crime.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau ofPrisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.
2

---------------------------------------------------------------------------------·- -----

Case 4:19-cr-00092-A Document 32 Filed 12/20/19

Page 3 of 5 PageID 88

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U .S.C. § 3583(t).

3

Case 4:19-cr-00092-A Document 32 Filed 12/20/19

Page 4 of 5 PageID 89

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 20th day of December, 2019.

4

Case 4:19-cr-00092-A Document 32 Filed 12/20/19

Page 5 of 5 PageID 90

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _, 2019 t o - - - - - - - - - - - - - a t - - - - - - - - - - - - - - - - - - - ' with a certified copy of this Judgment.
United States Marshal for the
Northern District of Texas
By _ _ _ _ _ _ _ _ _ _ _ _ _ ____

Deputy United States Marshal

5

